IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL DESHON MATTHEWS #281752
Vs.

JOHN DAVIDS, Warden

LIST OF APPENDIX
The defendant certifies under the penalty of perjury pursuant to 28 USC §1746 that the
below list of exhibits are true documents on file in the Michigan Court of Appeals:
Appendix A: State Court’s Opinion and Order Denying Appeal
Appendix B: Federal Court’s Opinion and Order Denying Habeas Petition
Appendix C: Federal Court’s Opinion and Order Denying Petitioners Objection
Appendix D: Sixth Circuit Order Denying Certificate of Appealability

SUBMITTED BM:

frlCHAEL DESHON MATTHEWS #281752
IONIA CORRECTIONAL FACILITY
1576 WEST BLUEWATER HIGHWAY
IONIA, MICHIGAN 48846

DATE:

, 2021

IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL DESHON MATTHEWS #281752
Vs.
JOHN DAVIDS, Warden

APPENDIX-A
STATE COURT’S OPINION AND ORDER DENYING APPEAL
(People v. Matthews, 2018 Mich. App. Lexis 408 (unpublished)

Page 1 of 9

Document: People v. Matthews, 2018 Mich. App. LEXIS 408

People v. Matthews, 2018 Mich. App. LEXIS 408
Copy Citation

Court of Appeals of Michigan
March 1, 2018, Decided
No.336121
Reporter

2018 Mich. App. LEXIS 408 * | 2018 WL 1122065

PEOPLE OF THE STATE OF MICHIGAN, Plaintiff-Appellee, v MICHAEL DESHON MATTHEWS,
Defendant-Appellant.

Notice: THIS IS AN UNPUBLISHED OPINION. IN ACCORDANCE WITH MICHIGAN COURT OF
APPEALS RULES, UNPUBLISHED OPINIONS ARE NOT PRECEDENTIALLY BINDING UNDER THE
RULES OF STARE DECISIS.

Subsequent History: Leave to appeal denied by People v. Matthews, 503 Mich. 860, 917
N.W.2d 66, 2018 Mich. LEXIS 1720 (Sept. 12, 2018)
Magistrate's recommendation at, Habeas corpus proceeding at Matthews v. Davids, 2020 U.S.
Dist. LEXIS 207865 (W.D. Mich., May 7, 2020)

Prior History: [*1] Wayne Circuit Court. LC No. 15-010167-01-FC.

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid-2964... 8/5/2021

!

Page 2 of 9

Core Terms
trial court, speedy trial right, restitution, letters, arrest, appointed, factual basis, articulate,
delays, speedy trial, court costs, quotation, sentenced, evidentiary hearing, reasons, vacated,
costs

Judges: Before: GLEICHER'*', P.J., and BORRELLOand SWARTZLE-r, JJ.

Opinion
Per Curiam.
Defendant, Michael Deshon Matthews, appeals as of right his convictions and sentences, after
a jury trial, of first-degree murder, MCL 750.316, and possession of a firearm during the
commission of a felony (felony-firearm), MCL 750.227b. On October 21, 2016, the trial court
sentenced defendant to life without parole for murder, to be served consecutive to a two-year
term of imprisonment for felony-firearm. We affirm defendant's convictions, but remand for a
factual basis for the imposition of court costs and an evidentiary hearing as to the amount of
restitution.

I. BACKGROUND
In the early morning hours of November 22, 2015, defendant and several other individuals
went to a nightclub in Detroit. Although they were permitted to enter, defendant and one of
these individuals, Joshua Simpson, were later forcibly removed from the club by security.
Their subsequent efforts at reentry were rebuffed. Thereafter, defendant asked Simpson for
Simpson's handgun. Defendant walked to the front door of the club and again asked to enter.
When the door opened, defendant reached in and shot a security guard, Darryl Jeter, [*2]
Jr., in the head, killing him. Most of these events were captured on surveillance footage taken
by an exterior camera.
Defendant was arrested later that day, and Clifford Woodards II was appointed to represent
him in this matter. Trial was initially scheduled to begin on April 20, 2016. However, trial was
delayed for reasons that will be discussed later in this opinion, and did not begin until
September 28, 2016. Between his arrest and trial, defendant sent multiple letters to the trial
court. These letters generally had two themes: (1) that defendant was unhappy with
Woodards and wanted a new attorney appointed to handle the case, and (2) that defendant
believed his right to a speedy trial was being violated by the length of time he remained in
custody before trial.
When the trial began, two juries were selected, one to decide the charges against defendant,
and the other to decide the charges against Simpson. However, before the trial court began
taking evidence, Simpson pleaded guilty to second-degree murder, MCL 750.317, and felonyfirearm .|~ia| Defendant rejected the prosecutor's final plea offer, and his case proceeded
before the jury. After hearing the evidence, the jury found defendant guilty [*3] of firstdegree murder and felony-firearm.
The trial court sentenced defendant to the terms of imprisonment stated at the outset of this
opinion. The trial court imposed court costs of $1,300, but did not articulate a factual basis
Tor-t-he-imp0sit4on-©f~these-eest-S7-T-be-tr4al-e0u-rt-alse-©r-dered-defendanf-t-e-pay-$77500-if) -------restitution to Jeter's mother as reimbursement for Jeter's funeral expenses. The amount of
these expenses was derived from defendant's presentence investigation report (PSIR), which

https://advance.lexis.com/documentprint/documentprintclick/?pdmfld=l000516&crid=2964... 8/5/2021

Page 3 of 9

stated that the family had incurred funeral expenses in this amount, and that documentation
would be provided at sentencing to support the figure. While no such documentation was
presented at sentencing, defendant raised no objections to the restitution order, and never
requested any documentation or other proof of the amount.

II ANALYSIS
On appeal, defendant raises four contentions of error: (1) that the trial court abused its
discretion by failing to appoint substitute counsel, (2) that the trial court erred by refusing to
dismiss the matter due to the length of time that transpired between defendant's arrest and
trial, (3) that the trial court erred by failing to articulate a factual basis [*4] for the
imposition of $1,300 in court costs, and (4) that the trial court erred by imposing restitution
in the amount of $7,500.

A SUBSTITUTION OF COUNSEL
Defendant argues that the trial court abused its discretion when, at a final conference held on
June 10, 2016, it rejected his request for substitute counsel without adequately exploring the
factual bases for the request. "A trial court's decision regarding substitution of counsel will not
be disturbed absent an abuse of discretion. A trial court abuses its discretion when its
decision falls outside the range of reasonable and principled outcomes." People v Strickland,
293 Mich App 393, 397; 810 NW2d 660 (2011) (quotation marks and citations omitted).
As this Court explained in Strickland:
An indigent defendant is guaranteed the right to counsel; however, he is not
entitled to have the attorney of his choice appointed simply by requesting that
the attorney originally appointed be replaced. Appointment of a substitute
counsel is warranted only upon a showing of good cause and where substitution
will not unreasonably disrupt the judicial process. Good cause exists where a
legitimate difference of opinion develops between a defendant and his appointed
counsel with regard to a fundamental trial tactic. [*5] [Id. (quotation
omitted).]
"When a defendant asserts that the defendant's assigned attorney is not adequate or diligent,
or is disinterested, the trial court should hear the defendant's claim and, if there is a factual
dispute, take testimony and state its findings and conclusion on the record." Id. (quotation
omitted). But ultimately, "It is a defendant's responsibility to seek a hearing." People v
Cetaways, 156 Mich. App. 108, 118; 401 N.W.2d 327 (1986). "[W]hat is required ... is that
the trial court elicit testimony from the attorney and the defendant in order to assess any
issues of fact. A full adversary proceeding, with counsel representing both the attorney and
the defendant, is not required.” 156 Mich. App. at 119. "Indeed, . . . questioning the attorney
alone is sufficient in some circumstances, and . . . failure to explore [a] defendant's claim
does not always require that the conviction be set aside." Id.
-Through-a-number-oHetters-sent-to-theTrial-eeuft-T-defeRdant-made-seve-r-aJ-Gomplaints--------regarding Woodards and asked that he be replaced. On appeal, defendant first notes that he
made one such request in a letter dated February 18, 2016. In this letter, defendant claimed

https://advance.lexis.com/documentprmt/documentprmtclick/7pdmficN 1000516&crid=2964... 8/5/2021

Page 4 of 9

that Woodards was working with the security guard Jeter and had a personal
relationship [*6] with him. Defendant also alleged that Woodards was working with the
prosecutor to sabotage defendant with a "fabricated video" and with "witnesses that can't
place me at the scene." However, at a hearing held on March 11, 2016, the trial court
questioned defendant and Woodards regarding this letter. The trial court asked defendant if
everything had been "squared away" between him and Woodards, and defendant responded,
"Yes." Woodards also confirmed that the two were working together at that point. Further,
when Woodards asked defendant if he would consent to Woodards continuing to attempt to
negotiate a plea with the prosecutor, defendant agreed to this course of action. Thus, based
on the representations of defendant and Woodards at this hearing, whatever concerns existed
at the time of the February 18, 2016 letter were resolved, leaving the trial court without any
reason to remove Woodards at that point.
Defendant subsequently wrote several additional letters in which he stated various complaints
regarding Woodards, and asked that he be given a new attorney. In one letter, dated May 25,
2016, defendant stated that Woodards had been ineffective, although he gave no further
explanation. [*7] In a second letter dated the same day, defendant wrote that Woodards did
not have defendant's "best int[e]rest in heart." Defendant stated that he wanted Woodards
"put under investigation," and once again claimed Woodards was "hired by the victim[']s
family[.]" Defendant wrote that Woodards was "a retained lawyer and I have not hired him
[.]" Then, in a letter received by the trial court on June 9, 2016, defendant generally
complained that Woodards had not responded to defendant's questions.
The trial court acknowledged receiving these letters at the June 10, 2016 final conference.
The trial court asked to hear from Woodards. Woodards explained that he had presented the
video evidence to defendant. On seeing this evidence, defendant claimed that the man who
was with Simpson and appeared to have shot Jeter was not defendant. Woodards seemed to
find this claim dubious, but nonetheless pursued the issue. Woodards asked defendant to
explain who the man in the video was, if not defendant himself, so that Woodards could
investigate the matter. At the hearing, defendant stated that he could not identify the man in
the video. Woodards stated that he believed he and defendant could work out their [*8]
apparent disagreement. The trial court denied defendant's request, explaining that it did not
believe defendant had presented any reason to discharge Woodards.
On appeal, defendant claims this decision was an abuse of discretion. Defendant largely
complains that the trial court "did nothing" to discover whether irreconcilable differences
existed between defendant and Woodards. Upon receiving defendant's letters, the trial court
heard from Woodards to obtain his perspective. Having heard from both defendant and
Woodards, the trial court then made its decision. To the extent defendant believes more
factual development was necessary, it was incumbent on him to request a hearing. Cetaways,
156 Mich App at 118. Defendant did not request any such hearing, and cannot now complain
that the trial court failed to investigate the matter further.
Nor did defendant's letters present good cause to discharge Woodards. Defendant seemed
mostly to focus on a belief that Woodards had been retained by Jeter's family in this case. In
this regard, defendant simply seems to have a misunderstanding regarding the retention of
Woodards. Plainly, Woodards was appointed to represent defendant in this matter by the trial
court; he was not retained [*9] by the victim's family.
1

Other than this claim, defendant alleged to have filed a grievance against Woodards, but gave
no reason for the grievance. Defendant stated that Woodards was ineffective, but without any
further elucidation. Defendant also generally complained that Woodards did not have his best
interests at heart and did not respond to unspecified inquiries. As this Court has explained, "A
mere allegation that a defendant lacks confidence in his or her attorney, unsupported by a
substantial reason, does not amount to adequate cause. Likewise, a defendant's general
unhappiness with counsel's representation is insufficient." Strickland, 293 Mich App at 398
(citations omitted). Defendant's complaints regarding Woodards "lacked specificity and did
not involve a difference of opinion with regard to a fundamental trial tactic." Id. We note that
"neither [defendant's] complaints nor his filing of a grievance established good cause for the
appointment of new counsel." 293 Mich App at 397-398. As such, we have no basis for
-making-a-Fmding-t-hat-defenda.n.t-r.ecei.v.edJneffectiv.e-assistance o.f counsel■________________

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=l 000516&crid=2964... 8/5/2021

Page 5 of 9

B SPEEDY TRIAL
Defendant argues that the trial court erred when, at the June 10, 2016 final conference, it
denied his request for a dismissal of [*10] the charges due to a purported violation of his
right to a speedy trial. Because defendant preserved his claim that his right to a speedy trial
was violated, this Court "review[s] this constitutional issue de novo." People v Cain, 238 Mich
App 95, 111; 605 NW2d 28 (1999).
As this Court has explained:
A defendant has the right to a speedy trial under the federal and Michigan
constitutions, which the Michigan Legislature statutorily enforces. U.S. Const,
Am VI; Const 1963, art 1 § 20; MCL 768.1. This right ensures that a guilty
verdict results only from a valid foundation in fact. See People v Eaton, 184 Mich
App 649, 655-656; 459 NW2d 86 (1990). But see United States v MacDonald,
456 U.S. 1, 8-9; 102 S Ct 1497; 71 L Ed 2d 696 (1982). Michigan courts apply
the four-part balancing test articulated in Barker v Wingo, 407 U.S. 514; 92 S Ct
2182; 33 L Ed 2d 101 (1972), to determine if a pretrial delay violated a
defendant's right to a speedy trial. See People v Collins, 388 Mich 680; 202
NW2d 769 (1972). The test requires a court to consider "(1) the length of the
delay, (2) the reasons for the delay, (3) the defendant's assertion of the right,
and (4) prejudice to the defendant." People v Williams, 163 Mich App 744, 755;
415 NW2d 301 (1987). This fourth element, prejudice, is critical to the analysis.
A delay that is under eighteen months requires a defendant to prove that the
defendant suffered prejudice. People v Taylor, 110 Mich App 823, 828-829; 314
NW2d 498 (1981). However, a delay of eighteen months or more, as in this
case, is presumed prejudicial and places a burden on the prosecutor to rebut
that presumption. People v Simpson, 207 Mich App 560, 563; 526 NW2d 33
(1994). [Cain, 238 Mich App at 111-112.]
We begin with the last [*11] element, prejudice. Again, this is a "critical" part of the
analysis. 238 Mich App at 112. Because the time between defendant's arrest and his trial was
well under 18 months,[2*] prejudice is not presumed, and the burden is on defendant to
prove that he suffered prejudice. Id. There are two types of prejudice recognized in a speedy
trial claim: "prejudice to the person and prejudice to the defense." People v Gilmore, 222
Mich App 442, 461-462; 564 NW2d 158 (1997).
As our Supreme Court has explained, "[prejudice to the defense is the more serious concern,
because the inability of a defendant adequately to prepare his case skews the fairness of the
entire system." People v Williams, 475 Mich 245, 264; 716 NW2d 208 (2006) (quotation
marks and citations omitted). In this case, defendant does not even attempt to argue that he
suffered prejudice to his defense,[¥&) nor is any such prejudice apparent from the record.
There is no evidence that the roughly 10 months that passed between defendant's arrest and
his trial caused any evidence to go missing, any witnesses to be lost, or otherwise affected
defendant's ability to present a defense.
Defendant only argues that he suffered personal prejudice. He first cites a portion of the
following passage from United States v Marion, 404 U.S. 307, 320; 92 S Ct 455; 30 L Ed 2d
468 (1971):
It is apparent also that very little support for appellees' position emerges from
a [*12] consideration of the purposes of the Sixth Amendment's speedy trial
provision, a guarantee that this Court has termed an important safeguard to
prevent undue and oppressive incarceration prior to trial, to minimize anxiety
and concern accompanying public accusation and to limit the possibilities that
lona-delav-wiJJJmr)air_the ability of an accused to defend h i mself. I no rd i nate
delay between arrest, indictment, and trial may impair a defendants abilltyttr
present an effective defense. But the major evils protected against by the
speedy trial guarantee exist quite apart from actual or possible prejudice to an

https://advance.lexis.com/documentprint/documentprintclick/7pdmficNl000516&crid=2964... 8/5/2021

Page 6 of 9

accused's defense. To legally arrest and detain, the Government must assert
probable cause to believe the arrestee has committed a crime. Arrest is a public
act that may seriously interfere with the defendant's liberty, whether he is free
on bail or not, and that may disrupt his employment, drain his financial
resources, curtail his associations, subject him to public obloquy, and create
anxiety in him, his family and his friends. ... So viewed, it is readily
understandable that it is either a formal indictment or information or else the
actual restraints imposed by arrest and holding to answer [*13] a criminal
charge that engage the particular protections of the speedy trial provision of the
Sixth Amendment. [Quotation marks and citations omitted.]
Defendant then explains that his "repeated attempts to inform the trial court that he wanted
to be brought to trial implicates the personal prejudice discussed in Marion. The fact that
[defendant] had been assigned counsel and was compelled to write letters to the judge
underscores this point."
"General allegations of prejudice are insufficient to establish that a defendant was denied the
right to a speedy trial." People v Walker, 276 Mich App 528, 544-545; 741 NW2d 843 (2007),
vacated in part on other grounds 480 Mich. 1059, 743 N.W.2d 914 (2008). All defendant has
done is conclusively assert, without any basis in fact, that he suffered the type of prejudice
discussed in Marion. His letters similarly raised only general concerns regarding his inability to
be with his family while he was incarcerated. On this record we conclude that defendant has
failed to demonstrate prejudice.
Even if we presume prejudice, the remaining factors do not demonstrate a violation of
defendant's speedy trial rights. The first factor, the length of the delay, weighs against
defendant. Again, no prejudice is presumed from a 10-month delay. Cain, 238 Mich App at
112.14&I A 10-month delay is not exceptionally [*14] long, and is far less of a delay than
has ultimately been found not to result in a violation of the speedy trial right in other cases.
See, e.g., People v Holtzer, 255 Mich App 478, 491-495; 660 NW2d 405 (2003) (finding a 19month delay "somewhat lengthy," but ultimately not warranting dismissal); Cain, 238 Mich
App at 112-113 (explaining that a 27-month delay was "longer than a routine period between
arrest and trial[,]" but did "not approach the outer limits of other delays" that this Court has
addressed).
The second factor, the reasons for the delay, further undercuts defendant's claim. "In
assessing the reasons for delay, this Court must examine whether each period of delay is
attributable to the defendant or the prosecution." People v Wadawski, 286 Mich App 634,
666; 780 NW2d 321 (2009). Unexplained delays, as well as delays inherent in the legal
system, such as docket congestion, are charged against the prosecution. Id. But while delays
inherent in the legal system are technically charged to the prosecution, "they are given a
neutral tint and are assigned only minimal weight in determining whether a defendant was
denied a speedy trial." Id. (quotation omitted).
Through counsel, defendant initially agreed to a trial date of April 20, 2016. However, it must
be noted that the trial court initially attempted to set a trial date [*15] of March 23, 2016,
and that Woodards asked for a different date due to his own schedule. This resulted in a trial
date of April 20, 2016. Thus, were it not for defense counsel's schedule, trial would have
initially been set a month earlier.
That said, trial did not begin until September 28, 2016. However, the reasons trial did not
occur as scheduled were entirely reasonable, having essentially been caused by the need to
sort out issues related to Simpson, who was to stand trial with defendant. On March 22,
2016, approximately a month before the date scheduled for trial, the trial court ordered
Simpson to undergo a competency evaluation. This issue was not resolved until June 10,
2016, when the trial court found Simpson competent to stand trial. At the final conference
held that same day, the trial court set trial for September 28, 2016. This date was selected
be completed on September 27, 2016. On the whole, while some routine delays might be
attributable to the prosecution as a technical matter, it does not appear that any delays that

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid= 1000516&crid-2964... 8/5/2021

Page 7 of 9

could be charged to the prosecutor were unreasonable. This [*16] factor weighs against
finding a violation of the right to a speedy trial.js
The third factor is the assertion of the right to a speedy trial. Cain, 238 Mich App at 111-112.
Defendant did assert his right to a speedy trial on multiple occasions, albeit somewhat
informally. At least arguably, this factor weights in favor of defendant. However, this is the
only factor that ultimately weighs in defendant's favor. We cannot conclude that defendant's
right to a speedy trial was violated in this instance. To do so would essentially be a conclusion
that defendant's right to a speedy trial was violated simply because he wrote several letters
raising the issue, as that is the only factor weighing in his favor. The trial court correctly
denied defendant's request for a dismissal of the case based on his claim that his right to a
speedy trial had been violated.

C COURT COSTS
Defendant argues that the trial court erred by failing to articulate a factual basis for the
imposition of $1,300 in court costs, and asks that the trial court's imposition of these costs be
vacated. The prosecutor concedes that the trial court failed to articulate a factual basis for the
imposition of these costs, but asks this Court to remand the matter [*17] to provide the trial
court with the opportunity to articulate a factual basis for the imposition of costs rather than
vacate the award. Having conceded error, we grant the request of the prosecutor and remand
the matter to the trial court to articulate a factual basis for the imposition of costs. See,
People v Konopka, 309 Mich. App. 345, 351-356; 869 N.W.2d 651 (2015); People v
Cunningham, 496 Mich 145, 147, 154-155; 852 NW2d 118 (2014).

D. RESTITUTION
Finally, defendant contends that the trial court abused its discretion by imposing $7,500 in
restitution, and asks that this portion of the judgment of sentence be vacated. The prosecutor
agrees that defendant is entitled to some measure of relief, but asks that rather than vacate
the restitution order, we remand the matter for an evidentiary hearing regarding the amount
of restitution. We grant the request of the prosecutor and remand the matter for an
evidentiary hearing regarding the amount of restitution in this matter.
Affirmed in part, and remanded for the trial court to state a factual basis for its order of court
costs and if necessary, to conduct an evidentiary hearing regarding the amount of restitution.
We do not retain jurisdiction.
/s/ Elizabeth L. Gleicher
/s/ Stephen L. Borrello
/s/ Brock A. Swartzle

Footnotes

[i*l Simpson was sentenced pursuant to a plea agreement. His convictions and
sentences-are-not.a.tJssueJn_this.appeal.______________ _______ ____________

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=2964... 8/5/2021

Page 8 of 9

H§

"The time forjudging whether the right to a speedy trial has been violated runs

from the date of the defendant's arrest." People v Williams, 475 Mich 245, 261; 716
NW2d 208 (2006). Defendant was arrested on November 22, 2015, and his trial
began on September 28, 2016, a period of approximately 10 months.

[3*1

Rather, defendant attempts to argue that prejudice to the defense should not be
given "undue emphasis . . . ." To this, we respond with this Court's observation that
"[o]ur Supreme Court has repeatedly recognized in the context of lengthy pretrial
incarcerations that the most significant concern is whether the defendant's ability to
defend himself or herself has been prejudiced." People v Waclawski, 286 Mich App
634, 668-669; 780 NW2d 321 (2009).

0 Cf. Williams, 475 Mich at 262 (when examining the first Barker factor, noting that
the delay was 19 months in that case, and thus, presumptively prejudicial).

fs*l

It is also true that two adjournments occurred at defense counsel's request.
However, we do not see either adjournment as particularly relevant. The first was an
adjournment of what was to be a final conference from February 18, 2016, to March
11, 2016. This adjournment did not seem to affect what was expected to be the trial
date at that time, April 20, 2016. Woodards did obtain another adjournment of a
pretrial conference from May 16, 2016, to May 25, 2016. However, this was during
the period that the issue of Simpson's competency was unresolved, and thus, this
adjournment also seems to have had no effect on the date defendant's trial ultimately
began.

Content Type: Cases
Terms: 2018 Mich. App. Lexis 408
Narrow By: Sources: Sources
'Date'and TimerAug O5r2021—05:44:35p.mrGDT—-

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=2964... 8/5/2021

IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL DESHON MATTHEWS #281752
Vs.
JOHN DAVIDS, Warden

APPENDIX-B
FEDERAL MAGISTRATE’S REPORT & RECOMMENDATION OPINION
(Matthews v. Davids, 2020 U.S. Dist. Lexis 207865) (unpublished)

Page 1 of 13

Document: Matthews v. Davids, 2020 U.S. Dist. LEXIS 207865

Matthews v. Davids, 2020 U.S. Dist. LEXIS 207865
Copy Citation
United States District Court for the Western District of Michigan, Southern Division
May 7, 2020, Decided; May 7, 2020, Filed
Case No. l:19-cv-310
Reporter
2020 U.S. Dist. LEXIS 207865 * | 2020 WL 7327612

MICHAEL DESHON MATTHEWS, Petitioner, v. JOHN DAVIDS, Respondent.

Subsequent History: Adopted by, Writ of habeas corpus denied, Certificate of appealability
denied, Objection overruled by Matthews v. Davids, 2020 U.S. Dist. LEXIS 206978 (W.D.
Mich., Nov. 5, 2020)

Prior History: People v. Matthews, 2018 Mich. App. LEXIS 408, 2018 WL 1122065 (Mich. Ct.
App., Mar. 1, 2018)

Core Terms

court of appeals, trial court, restitution, allegations, substitute counsel, state court, good
cause, appointed, letters, speedy trial, court costs, speedy trial right, certificate, pre-trial,
custody, factors, grounds, delays, cognizable, recommend, arrest, fines, clearly established
-federal-law■.-0,r.der_to_pav, incarcerated, quotation, courts, raises

https://advance.lexis.com/docimientprint/documentprintclick/7pdmfidH 000516&cricNa939... 8/5/2021

Page 2 of 13

Counsel: [*1] Michael Deshon Matthews #281752, petitioner, Pro se, Ionia, MI.

For John Davids, Warden, respondent: Andrea M. Christensen-Brown, Scott Robert Shirnkus^
, MI Dept Attorney General (Appellate), Appellate Division, Lansing, MI.

Judges: SALLY J. BERENS^, United States Magistrate Judge.

Opinion by: SALLY J. BERENS ▼

Opinion

REPORT AND RECOMMENDATION
This is a habeas corpus action brought by a state prisoner under 28 U.S.C. § 2254. Petitioner
Michael Deshon Matthews is incarcerated with the Michigan Department of Corrections at the
Ionia Correctional Facility (ICF) in Ionia, Ionia County, Michigan. Following a jury trial in the
Wayne County Circuit Court, Petitioner was convicted of (1) first-degree murder, in violation
of Mich. Comp. Laws § 750.316; and (2) possession of a firearm during the commission of a
felony (felony firearm), in violation of Mich. Comp. Laws § 750.227b. On October 21, 2016,
the court sentenced Petitioner to life imprisonment on the first-degree murder conviction, and
two years' imprisonment on the felony firearm conviction, with the prison terms to be served
consecutively.
On April 18, 2019, Petitioner filed his habeas corpus petition. The application is deemed filed
when handed to prison authorities for mailing to the federal court. Cook v. Stegall, 295 F.3d
517, 521 (6th Cir. 2002). Petitioner placed his petition in the [*2] prison mailing system on
April 18, 2019. (Pet., ECF No. 1, PageID.ll.)
The petition raises four grounds for relief, as follows:
I. DID [THE] TRIAL COURT ERR IN DENYING [PETITIONER'S] MOTION FOR
SUBSTITUTE COUNSEL IN VIOLATION OF THE UNITED STATES AND MICHIGAN
CONSTITUTIONS?
II. WAS [PETITIONER] DEPRIVED OF HIS SIXTH AMENDMENT RIGHT TO A
SPEEDY TRIAL WHERE HE WAS ARRESTED ON OR ABOUT NOVEMBER 22, 2015
AND TR[IA]L BEGAN ON SEPTEMBER 28, 2016?
III. DID THE TRIAL COURT ERR IN ASSESSING [PETITIONER] $1,200 IN COURT

COSTS?fl&1
IV. DID THE TRIAL COURT ABUSE ITS DISCRETION IN ORDERING $7,005[]IN
RESTITUTION?!^*]
(Pet., ECF No. 1, PageID.5-6, 8-9.) Respondent has filed an answer to the petition (ECF No.
10), stating that the grounds should be denied because Petitioner has not exhausted state
remedies for all grounds, the grounds are not cognizable, or the grounds lack merit. Upon
review and applying the standards of the Antiterrorism and Effective Death Penalty Act of

https://advance.lexis.corn/documentprint/documentprintclick/7pdmfkNl 000516&crid=a939... 8/5/2021

Page 3 of 13

1996, Pub. L. 104-132, 110 Stat. 1214 (AEDPA), I find that the grounds are lacking in merit.
Accordingly, I recommend that the petition be denied.

Discussion

I. Factual allegations
In addressing Petitioner's appeal, the Michigan Court of Appeals summarized the basic
underlying facts:
In the [*3] early morning hours of November 22, 2015, [Petitioner] and
several other individuals went to a nightclub in Detroit. Although they were
permitted to enter, [Petitioner] and one of these individuals, Joshua Simpson,
were later forcibly removed from the club by security. Their subsequent efforts
at reentry were rebuffed. Thereafter, [Petitioner] asked Simpson for Simpson's
handgun.
[Petitioner] walked to the front door of the club and again asked to enter. When
the door opened, [Petitioner] reached in and shot a security guard, Darryl Jeter,
Jr., in the head, killing him. Most of these events were captured on surveillance
footage taken by an exterior camera.
[Petitioner] was arrested later that day, and Clifford Woodards II was appointed
to represent him in this matter. Trial was initially scheduled to begin on April 20,
2016. However, trial was delayed for reasons that will be discussed later in this
opinion, and did not begin until September 28, 2016. Between his arrest and
trial, [Petitioner] sent multiple letters to the trial court. These letters generally
had two themes: (1) that [Petitioner] was unhappy with Woodards and wanted a
new attorney appointed to handle the case, and (2) [*4] that [Petitioner]
believed his right to a speedy trial was being violated by the length of time he
remained in custody before trial.
When the trial began, two juries were selected, one to decide the charges
against [Petitioner], and the other to decide the charges against Simpson.
However, before the trial court began taking evidence, Simpson pleaded guilty
to second-degree murder, MCL 750.317, and felony-firearm. [Petitioner]
rejected the prosecutor's final plea offer, and his case proceeded before the jury.
After hearing the evidence, the jury found [Petitioner] guilty of first-degree
murder and felony-firearm.
The trial court sentenced [Petitioner] to the terms of imprisonment stated at the
outset of this opinion. The trial court imposed court costs of $1,300, but did not
articulate a factual basis for the imposition of these costs. The trial court also
ordered [Petitioner] to pay $7,500 in restitution to Jeter's mother as
reimbursement for Jeter's funeral expenses. The amount of these expenses was
derived from [Petitioner's presentence investigation report (PSIR), which stated
that the family had incurred funeral expenses in this amount, and that
documentation would be provided at sentencing [*5] to support the figure.
While no such documentation was presented at sentencing, [Petitioner] raised
no objections to the restitution order, and never requested any documentation
or other proof of the amount.
People v. Matthews, No. 336121, 2018 Mich. App. LEXIS 408, 2018 WL 1122065, at *1 (Mich.
Ct. App. Mar. 1, 2018) (footnotes omitted).

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=a939... 8/5/2021

Page 4 of 13

Petitioner, with the assistance of counsel, appealed his conviction raising the same issues he
raises in this Court. (Pet'r's Br., ECF No. 1-1, PageID.25.) The Michigan Court of Appeals
affirmed the convictions but remanded to establish factual bases for the amount of restitution
and court costs. 2018 Mich. App. LEXIS 408, [WL] at *7.
On March 30, 2018, while awaiting a hearing in the trial court, Petitioner applied pro per for
leave to appeal the court of appeals decision to the Michigan Supreme Court. (ECF No. 11-11,
PageID.314.) In his application to the Michigan Supreme Court, Petitioner raised the same
first three issues he raises in this Court. (Id., PageID.316, 319, 322.) On September 12,
2018, the Michigan Supreme Court denied Petitioner's application for leave to appeal. (Id.,
PageID.313.)
On November 15, 2018, after the state supreme court denied Petitioner's application, the trial
court held a hearing to establish the factual bases for the court costs and restitution it had
imposed with [*6] the conviction. (ECF No. 12-1, PageID.388.) The trial court affirmed the
$1,300 in court costs but eliminated the $7,500 in restitution because it lacked detailed
documentation to explain the figure.[3~a] (Post-conviction Hr'g Tr., ECF No. 12-1, PageID.390392.)

II. AEDPA standard
The AEDPA "prevents federal habeas ’retrials'" and ensures that state court convictions are
given effect to the extent possible under the law. Bell v. Cone, 535 U.S. 685, 693-94, 122 S.
Ct. 1843, 152 L. Ed. 2d 914 (2002). An application for writ of habeas corpus on behalf of a
person who is incarcerated pursuant to a state conviction cannot be granted with respect to
any claim that was adjudicated on the merits in state court unless the adjudication: "(1)
resulted in a decision that was contrary to, or involved an unreasonable application of, clearly
established federal law as determined by the Supreme Court of the United States; or (2)
resulted in a decision that was based upon an unreasonable determination of the facts in light
of the evidence presented in the state court proceeding." 28 U.S.C. § 2254(d). This standard
is "intentionally difficult to meet." Woods v. Donald, 575 U.S. 312, 316, 135 S. Ct. 1372, 191
L. Ed. 2d 464 (2015) (internal quotation omitted).
The AEDPA limits the source of law to cases decided by the United States Supreme Court. 28
U.S.C. § 2254(d). This Court may consider only [*7] the holdings, and not the dicta, of the
Supreme Court. Williams v. Taylor, 529 U.S. 362, 412, 120 S. Ct. 1495, 146 L. Ed. 2d 389
(2000); Bailey v. Mitchell, 271 F.3d 652, 655 (6th Cir. 2001). In determining whether federal
law is clearly established, the Court may not consider the decisions of lower federal courts.
Williams, 529 U.S. at 381-82; Miller v. Straub, 299 F.3d 570, 578-79 (6th Cir. 2002).
Moreover, "clearly established Federal law" does not include decisions of the Supreme Court
announced after the last adjudication of the merits in state court. Greene v. Fisher, 565 U.S.
34, 37-38, 132 S. Ct. 38, 181 L. Ed. 2d 336 (2011). Thus, the inquiry is limited to an
examination of the legal landscape as it would have appeared to the Michigan state courts in
light of Supreme Court precedent at the time of the state-court adjudication on the merits.
Miller v. Stovall, 742 F.3d 642, 644 (6th Cir. 2014) (citing Greene, 565 U.S. at 38).
A federal habeas court may issue the writ under the "contrary to" clause if the state court
applies a rule different from the governing law set forth in the Supreme Court's cases, or if it
decides a case differently than the Supreme Court has done on a set of materially
indistinguishable facts. Bell, 535 U.S. at 694 (citing Williams, 529 U.S. at 405-06). "To satisfy
this high bar, a habeas petitioner is required to 'show that the state court's ruling on the
claim being presented in federal court was so lacking in justification that there was an error
well understood and comprehended in existing law beyond any possibility for fairminded
disagreement.'" Woods, 575 U.S. at 316 (quoting [*8] Harrington v. Richter, 562 U.S. 86,
103, 131 S. Ct. 770, 178 L. Ed. 2d 624 (2011)). In other words, "[wjhere the precise
contours of the right remain unclear, state courts enjoy broad discretion in their_adjudication_
"of a prisoner'sclaims." White v. Woodall, 572 U.S. 415, 424, 134 S. Ct. 1697, 188 L. Ed. 2d
698 (2014) (internal quotations omitted).

https://advance.lexis.com/documentprint/documentprmtcliclc/?pdmfld=1000516&crid=a939... 8/5/2021

Page 5 of 13

The AEDPA requires heightened respect for state factual findings. Herbert v. Billy, 160 F.3d
1131, 1134 (6th Cir. 1998). A determination of a factual issue a state court made is
presumed to be correct, and the petitioner has the burden of rebutting the presumption by
clear and convincing evidence. 28 U.S.C. § 2254(e)(1); Davis v. Lafler, 658 F.3d 525, 531
(6th Cir. 2011) (en banc); Lancaster v. Adams, 324 F.3d 423, 429 (6th Cir. 2003); Bailey,
271 F.3d at 656. This presumption of correctness is accorded to findings of state appellate
courts, as well as the trial court. See Sumner v. Mata, 449 U.S. 539, 546, 101 S. Ct. 764, 66
L. Ed. 2d 722 (1981); Smith v. Jago, 888 F.2d 399, 407 n.4 (6th Cir. 1989).

III. Substitute Counsel
Petitioner alleges that his right to counsel under the Sixth Amendment was violated because
the trial court denied his request for substitute counsel without adequately establishing the
factual bases for his request.
Petitioner wrote several letters to the trial court alleging several issues that he had with his
counsel and requesting a substitution. In Petitioner's first letter dated February 18, 2016, he
alleged that his counsel "had a personal relationship" with the victim and "was working with
the prosecutor to sabotage [Petitioner] with a 'fabricated video' and with 'witnesses that can't
place [Petitioner] at [*9] the scene.'" Matthews, 2018 Mich. App. LEXIS 408, 2018 WL
1122065, at *2. At a pre-trial hearing on March 11, 2016, when the trial court asked "if
everything had been 'squared away' between [Petitioner] and [his counsel,]" Petitioner
responded, "Yes." Id. Petitioner further consented to his counsel's efforts to negotiate a plea
agreement. After the March 11, 2016 hearing, but before the final pre-trial conference,
Petitioner wrote several more letters to the trial court complaining that his counsel did not
respond to his questions, was "ineffective," and "did not have [Petitioner's] 'best int[e]rest in
heart.'" 2018 Mich. App. LEXIS 408, [WL] at *3. Petitioner further alleged that his counsel
was "'hired by the victim[']s family," claiming his counsel was "a retained lawyer" whom
Petitioner had not hired. Id. At the final pre-trial conference, the trial court asked Petitioner's
counsel to respond to the allegations. Petitioner's counsel explained to the trial court that he
and Petitioner had difficulty resolving a disagreement about the identity of an individual in a
security video, but Petitioner's counsel remained confident that they could work out any
disagreement. After listening to counsel's explanation, the trial court explained to Petitioner
that he had not provided any [*10] reason to substitute counsel. The court therefore denied
Petitioner's request.
The Sixth Amendment provides a criminal defendant with the right "to have the Assistance of
Counsel for his defense." U.S. Const, amend. VI. One element of that right is the right to
have counsel of one's choice. See United States v. Gonzalez-Lopez, 548 U.S. 140, 148, 126 S.
Ct. 2557, 165 L. Ed. 2d 409 (2006). However, the right to counsel of choice is not without
limits. Id. at 148; United States v. Mooneyham, 473 F.3d 280, 291 (6th Cir. 2007). "[T]he
right to counsel of choice does not extend to defendants who require counsel to be appointed
for them." Gonzalez-Lopez, 548 U.S. at 151 (citing Wheat v. United States, 486 U.S. 153,
159, 108 S. Ct. 1692, 100 L. Ed. 2d 140 (1988); Caplin & Drysdale, Chartered v. United
States, 491 U.S. 617, 624, 109 S. Ct. 2646, 105 L. Ed. 2d 528 (1989)). "'An indigent
defendant has no right to have a particular attorney represent him and therefore must
demonstrate "good cause" to warrant substitution of counsel.'" Mooneyham, 473 F.3d at 291
(quoting United States v. lies, 906 F.2d 1122, 1130 (6th Cir. 1990)); see also Caplin &
Drysdale, 491 U.S. at 624 (''[T]hose who do not have the means to hire their own lawyers
have no cognizable complaint so long as they are adequately represented by attorneys
appointed by the courts."). Thus, where a court is faced with a defendant's request to effect a
change in his representation by way of a motion to substitute counsel, the court must
determine whether there is good cause for the substitution by balancing "the accused's right
to counsel of his choice and the public's interest in the prompt and efficient administration of
justice." United States v. Jennings, 83 F.3d 145, 148 (6th Cir. 1996).
-Althoughthe-MTchrgan-Court-of-Appeais*[^'l^—ctted'onlyMichigan'casHsTnnts analysis'on
this claim, the standard it applied inquired whether Petitioner had established that there was
good cause to substitute counsel:

https://advance.lexis.com/docnmentprint/documentprintclick/?pdmfld=1000516&crid=a939... 8/5/2021

Page 6 of 13

"A trial court's decision regarding substitution of counsel will not be disturbed
absent an abuse of discretion. A trial court abuses its discretion when its
decision falls outside the range of reasonable and principled outcomes." People
v. Strickland, 293 Mich. App. 393, 397, 810 N.W.2d 660; 293 Mich. App. 393,
810 N.W.2d 660 (2011) (quotation marks and citations omitted).
As this Court explained in Strickland:
An indigent defendant is guaranteed the right to counsel; however,
he is not entitled to have the attorney of his choice appointed
simply by requesting that the attorney originally appointed be
replaced. Appointment of a substitute counsel is warranted only
upon a showing of good cause and where substitution will not
unreasonably disrupt the judicial process. Good cause exists where
a legitimate difference of opinion develops between a defendant
and his appointed counsel with regard to a fundamental trial tactic.
[Id. (quotation omitted).]
Matthews, 2018 Mich. App. LEXIS 408, 2018 WL 1122065, at *2.
On appeal, Petitioner alleged that the trial court abused its discretion because it "did nothing
to determine whether . . . there were irreconcilable differences between [*12] [Petitioner]
and his counsel." (Ex. 1 Supp. Pet., ECF No. 1-1, PageID.41.) The Michigan Court of Appeals
found Petitioner's argument unpersuasive because the trial court heard from Petitioner
through his multiple letters as well as from his counsel at pre-trial hearings. The court of
appeals continued, "[t]o the extent [Petitioner] believes more factual development was
necessary, it was incumbent on him to request a hearing. [Petitioner] did not request any
such hearing, and cannot now complain that the trial court failed to investigate the matter
further." Matthews, 2018 Mich. App. LEXIS 408, 2018 WL 1122065, at *3. Indeed, Petitioner
cannot demonstrate that the trial court should have inquired more extensively into
Petitioner's request for substitute counsel because "the clearly established law does not
indicate that the trial court had a duty to conduct a good cause inquiry before determining
whether to grant or deny" Petitioner's request. Brooks v. Latter, 454 F. App'x 449, 452 (6th
Cir. 2012). Thus, this determination by the court of appeals was not unreasonable.
Likewise, Petitioner has not established that the court of appeals was unreasonable when it
determined the allegations he made against his counsel failed to provide good cause for
substitute counsel. The court of appeals determined [*13] that the allegations from
Petitioner's letters failed to establish good cause for substitute counsel because the
allegations either had been resolved, had been found to be factually false, or had been had
been too general and unsupported.
The court of appeals' holding that Petitioner's earliest allegations—those before the March 11,
2016, hearing—had been resolved is not unreasonable. After making these early allegations,
Petitioner later confirmed to the trial court they had been "squared away." Matthews, 2018
Mich. App. LEXIS 408, 2018 WL 1122065, at *2. Thus, the court of appeals was entirely
reasonable in determining that the allegations before the March 11, 2016 hearing failed to
establish good cause to warrant substitution of counsel.
Petitioner fares no better in his later allegations. Petitioner arguably alleged grounds to
establish good cause for substitution of counsel when he asserted that his counsel had been
retained on his behalf by the victim's family. However, the court of appeals found that
Petitioner's counsel had been appointed not retained. Id. at *3. Petitioner does not challenge
any of the facts relied upon by the Michigan Court of Appeals as beyond the record nor does
he provide any new information to support his allegation. Thus, [*14] Petitioner fails to
point to any evidence, much less clear and convincing evidence, to displace the State court's
factual finding that his counsel had been appointed. See 28 U.S.C. § 2254(e)(1); Davis, 658
F.3d at 531. As a result, the court's finding was not unreasonable.
The Michigan Court of Appeals determined that Petitioner's remaining allegations were too
“general'and'orwere'otherwise'unsupportecll
Other than this claim, defendant alleged to have filed a grievance against
Woodards, but gave no reason for the grievance. Defendant stated that

https://advance.lexis.com/documentprint/documentprmtclicky7pdmficN1000516&crid=a939... 8/5/2021

Page 7 of 13

Woodards was ineffective, but without any further elucidation. Defendant also
generally complained that Woodards did not have his best interests at heart and
did not respond to unspecified inquiries. As this Court has explained, "A mere
allegation that a defendant lacks confidence in his or her attorney, unsupported
by a substantial reason, does not amount to adequate cause. Likewise, a
defendant's general unhappiness with counsel's representation is insufficient."
Strickland, 293 Mich. App. at 398 (citations omitted). Defendant's complaints
regarding Woodards "lacked specificity and did not involve a difference of
opinion with regard to a fundamental trial tactic." Id. We note that "neither
[defendant's] complaints nor [*15] his filing of a grievance established good
cause for the appointment of new counsel." Id. at 397-398. As such, we have no
basis for making a finding that defendant received ineffective assistance of
counsel.
Matthews, 2018 Mich. App. LEXIS 408, 2018 WL 1122065, at *3. Petitioner's allegations fail
to demonstrate "a conflict of interest, a complete breakdown in communication, or an
irreconcilable conflict with [his] attorney in order to warrant substitution." Morris v. Stewart,
No. 17-1478, 2017 WL 9248729, at *1 (6th Cir. Nov. 15, 2017) (citing Henness v. Bagley,
644 F.3d 308, 321 (6th Cir. 2011); Wilson v. Mintzes, 761 F.2d 275, 280 (6th Cir. 1985)).
The Michigan Court of Appeals determination on these allegations was not unreasonable.
Thus, Petitioner has failed to show that the court's determination regarding denial of
substitute counsel "was contrary to, or involved an unreasonable application of, clearly
established Federal law" or that it resulted from "unreasonable determination of the facts." 28
U.S.C. § 2254(d)(l)-(2). Consequently, Petitioner is not entitled to habeas relief on this
ground.

IV. Speedy Trial
Petitioner alleges that he was deprived of his right to a speedy trial in violation of the Sixth
Amendment because 10 months elapsed between his arrest and his trial. Petitioner's
contention that his convictions were unconstitutional because of a "speedy trial" violation falls
short under the AEDPA standard.
In Brown v. Romanowski, 845 F.3d 703 (6th Cir. 2017), the Sixth Circuit reviewed the clearly
established federal [*16] law with respect to the constitutional requirement for a speedy
trial:
The Sixth Amendment guarantees in relevant part that "[i]n all criminal
prosecutions, the accused shall enjoy the right to a speedy and public trial." U.S.
Const, amend. VI. These rights apply to the states through the Fourteenth
Amendment. Klopflerv. North Carolina, 386 U.S. 213, 223, 87 S. Ct. 988, 18 L.
Ed. 2d 1 (1967). The purpose of the speedy-trial guarantee is to protect the
accused against oppressive pre-trial incarceration, the anxiety and concern due
to unresolved criminal charges, and the risk that evidence will be lost or
memories diminished. Doggett v. United States, 505 U.S. 647, 654, 112 S. Ct.
2686, 120 L. Ed. 2d 520 (1992); United States v. Loud Hawk, 474 U.S. 302,
312, 106 S. Ct. 648, 88 L. Ed. 2d 640 (1986); United States v. MacDonald, 456
U.S. 1, 7-8, 102 S. Ct. 1497, 71 L. Ed. 2d 696 (1982); Barker v. Wingo, 407
U.S. 514, 532-33, 92 S. Ct. 2182, 33 L. Ed. 2d 101 (1972); United States v.
Marion, 404 U.S. 307, 320, 92 S. Ct. 455, 30 L. Ed. 2d 468 (1971); United
States v. Ewell, 383 U.S. 116, 120, 86-S-Ct. 773, 15 L. Ed. 2d 627 (1966). The
sole remedy for a violation of the speedy-trial right is dismissal of the charges.
See Strunk v. United States, 412 U.S. 434, 439-40, 93 S. Ct. 2260, 37 L. Ed. 2d
56 (1973); United States v. Brown, 169 F.3d 344, 348 (6th Cir. 1999).

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=a939... 8/5/2021

Page 8 of 13

In Barker, the Supreme Court established a four-factor test for determining
whether a defendant has been denied the constitutionally guaranteed right to a
speedy trial. Barker held that a court must consider (1) the length of the delay,
(2) the reason for the delay, (3) the defendant's assertion of his right, and (4)
prejudice to the defendant. Barker, 407 U.S. at 530. No one factor is dispositive.
Rather, they are related factors that must be considered together with any other
relevant circumstances. Id. at 533.
Brown, 845 F.3d at 712.
The Michigan Court of Appeals' analysis expressly applied the Barker four-factor test:
We begin with the last element, [*17] prejudice. Again, this is a "critical" part
of the analysis. [People v. Cain, 605 N.W.2d 28, 238 Mich. App. 95, 112
(1999).] Because the time between defendant's arrest and his trial was well
under 18 months, prejudice is not presumed, and the burden is on defendant to
prove that he suffered prejudice. Id. There are two types of prejudice recognized
in a speedy trial claim: "prejudice to the person and prejudice to the defense."
People v Gilmore, 222 Mich App 442, 461-462, 564 N.W.2d 158; 222 Mich. App.
442, 564 NW2d 158 (1997).
As our Supreme Court has explained, "[prejudice to the defense is the more
serious concern, because the inability of a defendant adequately to prepare his
case skews the fairness of the entire system." People v Williams, 475 Mich 245,
264, 716 N.W.2d 208; 475 Mich. 245, 716 NW2d 208 (2006) (quotation marks
and citations omitted). In this case, defendant does not even attempt to argue
that he suffered prejudice to his defense, nor is any such prejudice apparent
from the record. There is no evidence that the roughly 10 months that passed
between defendant's arrest and his trial caused any evidence to go missing, any
witnesses to be lost, or otherwise affected defendant's ability to present a
defense.
Defendant only argues that he suffered personal prejudice. He first cites . . .
from United States v Marion, 404 US 307, 320, 92 S. Ct. 455, 30 L. Ed. 2d 468;
404 U.S. 307, 92 S Ct 455, 30 L. Ed. 2d 468; 404 U.S. 307, 92 S. Ct. 455, 30 L
Ed 2d 468 (1971)[.]
* * *
Defendant then explains that his "repeated attempts to inform the trial court
that he wanted to be brought [*18] to trial implicates the personal prejudice
discussed in Marion. The fact that [defendant] had been assigned counsel and
was compelled to write letters to the judge underscores this point."
"General allegations of prejudice are insufficient to establish that a defendant
was denied the right to a speedy trial." People v Walker, 276 Mich App 528, 544545, 741 N.W.2d 843; 741 NW2d 843 (2007), vacated in part on other grounds
480 Mich 1059 (2008). All defendant has done is conclusively assert, without
any basis in fact, that he suffered the type of prejudice discussed in Marion. His
letters similarly raised only general concerns regarding his inability to be with his
family while he was incarcerated. On this record we conclude that defendant has
failed to demonstrate prejudice.
Matthews, 2018 Mich. App. LEXIS 408, 2018 WL 1122065, at *4-5 (footnotes omitted).
The Michigan Court of Appeals continued its analysis through each of the remaining Barker
factors. Regarding the length of delay, the court of appeals determined that "[a] 10-month
delay is not exceptionally long." 2018 Mich. App. LEXIS 408, [WL] at *6. As for the causes of
the delays commencing Petitioner's trial, the court of appeals found that some of the delays
were dueJtp_Peti.tionerjs.triaI_counsel. and of those "attributable to the prosecution as a_____
technical matter, it does not appear that any delays that could be charged [*19] to the
prosecutor were unreasonable." Id. The court of appeals held that both the length and cause
of delay factors weighed against Petitioner. The court held that on Barker’s third factor,

https://advance.lexis.com/documentprint/documentprintclick/?pdmfld=1000516&crid=a939... 8/5/2021

Page 9 of 13

Petitioner's assertion of his right to a speedy trial, the factor weighed in favor of Petitioner.
Nonetheless, the court of appeals rejected Petitioner's speedy trial claim. Id.
In the Michigan state courts, the right to a speedy trial is guaranteed by the United States
constitution, U.S. Const, amend VI; the Michigan constitution, Mich. Const. 1963 art.l, § 20;
state statute, Mich. Comp. Laws § 768.1; and court rule, Mich. Ct. R. 6.004(D). Cain, 238
Mich. App. at 112; People v. McLaughlin, 258 Mich. App. 635, 672 N.W.2d 860, 867 (Mich. Ct.
App. 2003). The Michigan state courts apply the Barker four-factor test "to determine if a
pretrial delay violated a defendant's right to a speedy trial[,]" whether the speedy trial right
at issue arises from federal or state law. Cain, 238 Mich. App. at 112 (citing People v. Collins,
388 Mich. 680, 202 N.W.2d 769 (Mich. 1972)).|4A] Thus, it cannot be said that the state
courts applied the wrong standard in evaluating Petitioner's "speedy trial" claim.
The Barker Court acknowledged that its test was a flexible balancing test and, thus,
"necessarily compels courts to approach speedy trial cases on an ad hoc basis." Barker, 407
U.S. at 529-30. The flexibility of the test has significant implications for this Court's review
under the AEDPA standard. [*20] "'The more general the rule at issue'—and thus the
greater the potential for reasoned disagreement among fair-minded judges—'the more leeway
[state] courts have in reaching outcomes in case-by-case determinations.'" Renico v. Lett,
559 U.S. 766. 776, 130 S. Ct. 1855, 176 L. Ed. 2d 678 (2010) (quoting Yarborough v.
Alvarado, 541 U.S. 652, 664, 124 S. Ct. 2140, 158 L. Ed. 2d 938 (2004)).
The Michigan Court of Appeals' balancing of the four factors does not appear to be
unreasonable. The length of delay in this instance was not remarkable. "[A] delay is
presumptively prejudicial when it approaches one year." United States v. Gardner, 488 F. 3d
700, 719 (6th Cir. 2007). Delays of less than a year, on the other hand, might be so ordinary
that they do not even trigger analysis of the other factors. Doggett v. United States, 505 U.S.
647, 651-52, 112 S. Ct. 2686, 120 L. Ed. 2d 520 (1992). Indeed, the Sixth Circuit has
suggested that a "ten-month delay ... is likely right at the line to trigger an analysis of the
remaining factors." United States v. Brown, 498 F.3d 523, 530 (6th Cir. 2007). Certainly, the
conclusion of the court of appeals that prejudice cannot be presumed from a ten-month delay
is not unreasonable.
The Michigan Court of Appeals and trial court hearing transcripts indicate that the delays
bringing Petitioner to trial were largely due either to the unavailability of Petitioner's counsel
or to delays sorting out issues with Petitioner's co-defendant. Although "[a] deliberate
attempt to hamper the defense should be weighted heavily against [*21] the government. .
. , [a] more neutral reason such as negligence or overcrowded courts should be weighted less
heavily . . . ." Barker, 407 U.S. at 531. The court of appeals concluded that any delays in
Petitioner's case attributable to the prosecution were not unreasonable. The court of appeals'
determination is itself not unreasonable.
With regard to the third factor, the court of appeals determined that "[Petitioner] did assert
his right to a speedy trial on multiple occasions, albeit somewhat informally." Matthews, 2018
Mich. App. LEXIS 408, 2018 WL 1122065, at *6. Petitioner wrote multiple letters to the trial
court informing how long he had been in custody, asking that his case be dismissed on
speedy trial grounds, and that he should be brought to trial. The court of appeal determined
that, "[a]t least arguably, this factor weights in favor of [Petitioner]." Id. The court of appeals'
conclusion on the third factor was not unreasonable.
Finally, with respect to prejudice, the Barker Court identified three specific categories of harm
that might accrue to a pretrial detainee because of undue delay in proceeding with trial: "(i) .
. . oppressive pretrial incarceration; (ii) . . . anxiety and concern of the accused; and (iii) . . .
the defense [could] be impaired." [*22] Barker, 407 U.S. at 532 (footnote omitted). The
court of appeals acknowledged that Petitioner had remained detained for the 10 months
leading up to his trial, and that he had made allusions and conclusory allegations relating to
anxiety resulting from his detention. Nonetheless, the court of appeals also noted that
Petitioner had failed to identify how his defense was impaired in any respect.
After balancing the factors, the court oTappealsxejected Petitioner's speedy trial claim
because holding otherwise wouId'"be"a
was violated simply because he wrote several letters raising the issue, as that is the only
factor weighing in his favor." Matthews, 2018 Mich. App. LEXIS 408, 2018 WL 1122065, at
*6. Whether this Court would weigh the factors the same way is immaterial. All that matters

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=a939... 8/5/2021

Page 10 of 13

is whether Petitioner has shown that the court of appeals' determination was objectively
unreasonable. He has failed to make that showing. To the contrary, the state court's factual
determinations and its application of the Barker test, the clearly established federal law, were
reasonable. As a consequence, Petitioner is not entitled to habeas relief on this ground.

V. Court Costs and Restitution
Petitioner challenges the trial court's [*23] assessment of court costs and restitution.
However, Petitioner's final two claims are not cognizable on habeas review. In Washington v.
McQuiggin, 529 F. App'x 766 (6th Cir. 2013), the Sixth Circuit Court of Appeals considered
the limits of habeas jurisdiction with regard to orders to pay fines or restitution. The court
explained that under Section 2254 subject matter jurisdiction exists only for claims that a
person is "in custody" in violation of the Constitution or laws of the United States.
Washington, 529 F. App'x at 772-773 (citing Dickerson v. United States, 530 U.S. 428, 439
n.3, 120 S. Ct. 2326, 147 L. Ed. 2d 405 (2000) (quoting 28 U.S.C. § 2254(a)). Orders
compelling the payment of fines or restitution, therefore, "fall outside the scope of the federal
habeas statute because they do not satisfy the "in custody" requirement of a cognizable
habeas claim." Id. at 773; see also United States v. Watroba, 56 F.3d 28 (6th Cir. 1995)
(holding that Section 2255 does not grant subject matter jurisdiction over restitution orders);
Michaels v. Hackel, 491 Fed. App'x 670, 671 (6th Cir. 2012) (stating that a fine is not
cognizable under Section 2254 and citing Watroba, 56 F.3d at 29); Kennedy v. Nagy, No. 181463, 2018 U.S. App. LEXIS 36308, 2018 WL 3583212, at *2 (6th Cir. July 12, 2018)
("Kennedy argues that the trial court erred by ordering him to pay restitution, court costs,
and attorney's fees without first considering his financial situation .... [Tjhese claims are not
cognizable in a federal habeas proceeding because noncustodial punishments do not satisfy
the 'in custody' requirement of § 2254."). That a petitioner might be subject to a custodial
penalty does [*24] not make available to him collateral relief from a noncustodial
punishment such as an order to pay fines or restitution. Washington, 529 F. App'x at 773.
In addition to restitution, Petitioner has been ordered to pay court costs, which are neither
restitution nor fees. In Washington, the noncustodial penalty at issue was not an order to pay
fines or restitution either—it was an order to pay attorney's fees. That difference, however,
did not make Washington's claim cognizable on habeas review:
For habeas purposes, it is difficult to distinguish—and Washington does not
attempt to distinguish—an order imposing attorney's fees from a fine or
restitution order. Although the question of whether a claim satisfies the "in
custody" requirement is to some extent one of degree, Nelson v. Campbell, 541
U.S. 637, 646, 124 S. Ct. 2117, 158 L. Ed. 2d 924 (2004), a fee-repayment
order falls outside of even "the margins of habeas," id., because it is "not a
serious restraint on . . . liberty as to warrant habeas relief." Tinder, 725 F.2d at
805; Bailey, 599 F.3d at 979 (quoting Tinder).
Washington, 529 F. App'x at 772-73. For the same reasons, Petitioner's habeas challenge to
the costs imposed upon him is without merit because it is outside the scope of the federal
habeas statute.

Certificate of Appealability
Under 28 U.S.C. § 2253(c)(2), the Court must determine whether a certificate of appealability
should be [*25] granted. A certificate should issue if'Petitioner has demonstrated”^
"substantial showing of a denial of a constitutional right." 28 U.S.C. § 2253(c)(2). The Sixth
Circuit Court of Appeals has disapproved issuance of blanket denials of a certificate of

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=l 000516&crid=a939... 8/5/2021

Page 11 of 13

appealability. Murphy v. Ohio, 263 F.3d 466, 467 (6th Cir. 2001) (per curiam). Rather, the
district court must "engage in a reasoned assessment of each claim" to determine whether a
certificate is warranted. Id. Each issue must be considered under the standards set forth by
the Supreme Court in Slack v. McDaniel, 529 U.S. 473, 120 S. Ct. 1595, 146 L. Ed. 2d 542
(2000). Murphy, 263 F.3d at 467. Consequently, I have examined each of Petitioner's claims
under the Slack standard. Under Slack, 529 U.S. at 484, to warrant a grant of the certificate,
"[t]he petitioner must demonstrate that reasonable jurists would find the district court's
assessment of the constitutional claims debatable or wrong." Id. "A petitioner satisfies this
standard by demonstrating that . . . jurists could conclude the issues presented are adequate
to deserve encouragement to proceed further." Miller-El v. Cockrell, 537 U.S. 322, 327, 123
S. Ct. 1029, 154 L. Ed. 2d 931 (2003). In applying this standard, the Court may not conduct
a full merits review, but must limit its examination to a threshold inquiry into the underlying
merit of Petitioner's claims. Id.
I find that reasonable jurists could not conclude that this Court's dismissal [*26] of
Petitioner's claims would be debatable or wrong. Therefore, I recommend that the Court deny
Petitioner a certificate of appealability.
Moreover, although I conclude that Petitioner has failed to demonstrate that he is in custody
in violation of the constitution and has failed to make a substantial showing of a denial of a
constitutional right, I would not conclude that any issue Petitioner might raise on appeal
would be frivolous. Coppedge v. United States, 369 U.S. 438, 445, 82 S. Ct. 917, 8 L. Ed. 2d
21 (1962).

Recommended Disposition
For the foregoing reasons, I recommend that the habeas corpus petition be denied. I further
recommend that a certificate of appealability be denied. Finally, I recommend that the Court
not certify that an appeal would not be taken in good faith.
Dated: May 7, 2020
/s/ Sally J. Berens-v
SALLY 3. BERENS^
U.S. Magistrate Judge

Footnotes

0 Other documents, including those Petitioner attached to his petition, suggest the
trial court imposed court costs of $1,300 rather than $1,200. For the purposes of this
report and recommendation, the amounts are inconsequential.

Likewise, other documents suggest that the trial court imposed restitution of
$7,500 rather than $7,005.

dU
https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=a939... 8/5/2021

Page 12 of 13

The trial court left open an opportunity to reinstate the restitution upon submission of
evidence justifying the amount. (See Post-conviction Hr'g Tr., ECF No. 12-1,
PagelD.391-392.) However, the record before this Court lacks any indication that the
restitution was subsequently reinstated.

[4§
Although the state courts apply the clearly established federal law, the Barker test,
to evaluate "speedy trial" claims, they apply it a little differently than the federal
courts. The state courts shift the burden of proof with respect to prejudice based on
the length of the delay, drawing the line at 18 months. Cain, 238 Mich. App. at 112.
The federal courts, however, eschew such a "bright-line rule." Brown, 845 F.3d at
717. Instead, the federal "courts must conduct a functional analysis of the right in the
particular contest of the case." Id. (quoting United States v. Ferreira, 665 F.3d 701,
709 (6th Cir. 2011) (quoting Barker, 407 U.S. at 522)) (internal quotation marks
omitted). This is a difference between the federal and state applications of the test,
but the difference does not render the state court's application unreasonable or
contrary to Barker. See, e.g., Brown v. Bobby, 656 F.3d 325, 329-330 (6th Cir. 2011)
(court concluded Ohio's use of a 270-day rule was not "contrary to" Barker).

Content Type: Cases
Terms: 2020 US Dist. Lexis 207865
Narrow By: Sources: Sources
Date and Time: Aug 05,2021 05:45:18 p.m. CDT

https://advance.lexis.com/documentprint/documentprintclick/?pdmfid=1000516&crid=a939... 8/5/2021

sound, and the Court will order accordingly.
Therefore:
IT IS HEREBY ORDERED that the Objections (ECF No. [*5] 16) are DENIED and the Report and
Recommendation of the Magistrate Judge (ECF No. 13) is APPROVED and ADOPTED as the Opinion of the
Court.
IT IS FURTHER ORDERED that the petition for habeas corpus relief (ECF No. 1) is DENIED for the
reasons stated in the Report and Recommendation,
IT IS FURTHER ORDERED that a certificate of appealability pursuant to 28 U.S.C. § 2253(c) is DENIED
as to each issue asserted; however, the Court does not conclude that any issue Petitioner might raise on
appeal would be frivolous.
Dated: November 5, 2020
/s/Janet T. Neff

r - - "j

JANET T. NEFF▼
United States District Judge
!
Footnotes

;
In Barker v. Wingo, 407 U.S. 514, 530, 92 S. Ct. 2182, 33 L. Ed. 2d 101 (1972), the
Supreme Court established four factors for determining whether a defendant has been denied
the Sixth Amendment right to a speedy trial,-A court must consider (1) the length of the delay,
(2) the reason for the delay, (3) the defendant's assertion of his right, and (4) prejudice to the
defendant (R&R, ECF No. 13 at PageID.404).
•? :

;
;•

Content Type: Cases
Terms: 2020 us-dist lexis 206978
Narrow By: -NoneDate and Time: Aug 05,2021 02:55:42 p.m. CDT

C(p LexisNexis"

Print

Cookie Policy
Terms & Conditions

{(

c

\

Document: Matthews v. Davids, 2020 U.S. Dist. LEXIS 206978

Matthews v. Davids, 2020 U.S. Dist. LEXIS 206978
Copy Citation
United States District Court for the Western District of Michigan, Southern Division
November 5, 2020, Decided; November 5, 2020, Filed
Case No. l:19-cv-310
Reporter
2020 U.S. Dist. LEXIS 206978 * | 2020 WL 6498909

MICHAEL DESHON MATTHEWS, Petitioner, v. JOHN DAVIDS, Respondent.

Subsequent History: Habeas corpus proceeding at, Certificate of appealability denied, Request denied
by, As moot Matthews v. Davids, 2021 U.S. App. LEXIS 20373 (6th Cir., July 8, 2021)
Appeal terminated, 07/08/2021

Prior History: Matthews v. Davids, 2020 U.S. Dist. LEXIS 207865, 2020 WL 7327612 (W.D. Mich., May
7, 2020)

Core Terms
Recommendation, certificate, assertions, courts, clearly established federal law, speedy trial, frivolous,
objects, corpus

Counsel: [*1] Michael Deshon Matthews #281752, petitioner, Pro se, Ionia, MI.

.EorJohn-Davids—Warden—respontientrATfdrea~MT Christensen-Brown, Scott Robert Shimkus^, MI Dept
Attorney General (Appellate), Lansing, MI.

Judaes: HON. 1ANETT. NEFF-w. United States District luriae.

------ a —

---^ *

Opinion by: JANET T. NEFF't-

Opinion

'l '

OPINION AND ORDER
This is a habeas corpus petition filed pursuant to 28 U.S.C. § 2254. The matter was referred to the
Magistrate Judge, who issued a Report and Recommendation (R&R), recommending that this Court deny
the petition as lacking in merit. The matter is presently before the Court on Petitioner's objections to the
Report and Recommendation. In accordance with 28 U.S.C. § 636(b)(1) and FED.R.CIV. P. 72(b)(3), the
Court has performed de novo consideration of those portions of the Report and Recommendation to
which objections have been made. The Court denies the objections and issues this Opinion and Order.
The Court will also issue a Judgment in this § 2254 proceeding. See Gillis.v. United States, 729 F.3d 641,
643 (6th Cir. 2013) (requiring a separate judgment in habeas proceedings).
First, Petitioner objects "to the denial of [his] first issue which is substitute of counsel" (Obj., ECF No. 16
at PageID.415). Petitioner gives a summary of the efforts he took to notify the courts of his
dissatisfaction with his appointed counsel, and states [*2] that the courts are incorrect in saying he
"didn't explain [him]self" (id. at PageID.416). He asserts that he was "taken advantage of" because he
"didn't know what to do" and has "a learning disability and ADHD" (id.). Petitioner asks the Court to
"grant [him] a fair trial and a fair life chance to defend [him]self" (id. at PageID.416). However, aside
from Petitioner's assertions and disagreement with the Magistrate Judge's determination, he provides no
argument to undermine the Magistrate Judge's thorough analysis of this issue or to warrant habeas relief
(id.). The Magistrate Judge properly determined that Petitioner "failed to show that the court's
determination regarding denial of substitute counsel 'was contrary to, or involved an unreasonable
application of, clearly established Federal law' or that it resulted from 'unreasonable determination of the
facts'" (R&R, ECF No. 13 at PageID.403, citing 28 U.S.C. § 2254(d)(l)-(2)). Therefore, the objection is
denied.
Second, Petitioner objects to "the denial of [his] speedy trial by the courts" (Obj., ECF No. 16 at
PageID.416). Petitioner disagrees with the Michigan Court of Appeals' application of the Barker fourfactor test in determining whether the length [*3] of delay deprived him of his right to a speedy trial in
violation of the Sixth Amendment, again setting forth a summary of the facts and circumstances to
essentially reargue this claim (id. at PageID.417).|l&| Petitioner asserts that the length of his delay was
eleven months, and the reason for the delay was to "satisfy the prosecutor to get my co-defendant to
make up his mind and to finish his carjacking trial" (id.). Further, Petitioner contends that he asserted his
rights by writing "letters stating the facts that [he] hasn't been to trial in 180 day[s] also 11 months,"
and as a result he suffered prejudice by losing witnesses, in addition to the delay "effecting] [sic] [his]
rehabilitation ...," "lost [] time with [his] kids," "new mental health problems" and not being able to
support himself while in prison (id.). However, Petitioner's assertions do not establish error in the
' '
Michigan Court of Appeals' or the Magistrate Judge's sound analysis of the Barker factors. The Magistrate
Judge properly determined that "the state court’s factual determinations and its application of the Barker
test, the clearly established federal law, were reasonable" (R&R, ECF No. 13 at PageID.408). Therefore,
the objection [*4] is denied.
Having determined Petitioner's objections lack merit, the Court must further determine pursuant to 28
U.S.C. § 2253(c) whether to grant a certificate of appealability as to the issues raised. See Rules
Governing § 2254 CASES, Rule 11 (requiring the district court to "issue or deny a certificate of
appealability when it enters a final order"). The Court must review the issues individually. Slack v.
McDaniel, 529 U.S. 473, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000); Murphy v. Ohio, 263 F.3d 466, 46667 (6th Cir. 2001).
The Magistrate Judge set forth the applicable standards for a certificate of appealability, finding that
reasonable jurists could not conclude that this Court's dismissal of Petitioner's claims would be debatable
or wrong. The Magistrate Judge recommended that the Court deny Petitioner a certificate of appealability
(R&R, ECF No. 13 at PageID.411). Moreover, although the Magistrate Judge concluded that Petitioner has
failed to demonstrate that he is in custody in violation of the constitution and has failed to make a
substantial showing of a denial of a constitutional right, the Magistrate Judge would not conclude that
any issue Petitioner might raise on appeal would be frivolous (id., citing Coppedge v. United States, 369
U.S. 438, 445, 82 S. Ct. 917, 8 L. Ed. 2d 21 (1962)). The Magistrate Judqe's recommendations are

sound, and the Court will order accordingly.
Therefore:
IT IS HEREBY ORDERED that the Objections (ECF No. [*5] 16) are DENIED and the Report and
Recommendation of the Magistrate Judge (ECF No. 13) is APPROVED and ADOPTED as the Opinion of the
Court.
IT IS FURTHER ORDERED that the petition for habeas corpus relief (ECF No. 1) is DENIED for the
reasons stated in the Report and Recommendation.
IT IS FURTHER ORDERED that a certificate of appealability pursuant to 28 U.S.C. § 2253(c) is DENIED
as to each issue asserted; however, the Court does not conclude that any issue Petitioner might raise on
appeal would be frivolous.
Dated: November 5, 2020
/s/Janet T. Ne'ff-r
; •;

JANET T. NEFF▼
United States District Judge

Footnotes

In Barker v. Wingo, 407 U.S. 514, 530, 92 S. Ct. 2182/ 33 L. Ed. 2d 101 (1972), the
Supreme Court established four factors for deterijiining whether a defendant has been denied
the Sixth Amendment right to a speedy trial,-A court must consider (1) the length of the delay,
(2) the reason for the delay, (3) the defendant's assertion of his right, and (4) prejudice to the
defendant (R&R, ECF No. 13 at PageID.404).
•f

/ i

Content Type: Cases
Terms: 2020 usdist lexis 206978
I

Narrow By:-None-

.!

Date and Time: Aug 05,2021 02:55:42 p.m. CDT

p* LexisNexis'

Print

Cookie Policy
Terms & Conditions

%

■

-

'k

IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL DESHON MATTHEWS #281752
Vs.
JOHN DAVIDS, Warden

APPENDIX-D
SIXTH CIRCUIT ORDER DENYING APPEAL
(Matthews v. Davids, 2021 U.S. App.Lexis 20373) (unpublished)

Document: Matthews v. Davids, 2021 U.S. App. LEXIS 20373

Matthews v. Davids, 2021 U.S. App. LEXIS 20373
Copy Citation
United States Court of Appeals for the Sixth Circuit
July 8, 2021, Filed

No.20-2216
Reporter
2021 U.S. App. LEXIS 20373 *

MICHAEL DESHON MATTHEWS, Petitioner-Appellant, v. JOHN DAVIDS, Warden, Respondent-Appellee.

Prior History: Matthews v. Davids, 2020 U.S. Dist. LEXIS 206978, 2020 WL 6498909 (W.D. Mich., Nov.
5, 2020)

Core Terms
trial court, state court of appeal, appointed, court of appeals, district court, letters, speedy trial, factors,
jurists, substitute counsel, good cause, recommended, arrest

Counsel: [*1] For MICHAEL DESHON MATTHEWS, Petitioner - Appellant: Michael Deshon Matthews,
Ionia Correctional Facility, Ionia, MI.

For JOHN DAVIDS, Warden, Respondent - Appellee: Andrea M. Christensen-Brown,
Scott Robert Shimkus'*-, Office of the Attorney General, Lansing, MI.

Judges:-Before:-SlbER-'^-Circnit~Jlicl g e.

Opinion

ORDER
Michael Deshon Matthews, a Michigan prisoner proceeding pro se, appeals a district court judgment
denying his petition for a writ of habeas corpus under 28 U.S.C. § 2254. This court construes Matthews's
notice of appeal as an application for certificate of appealability ("COA"). See Fed. R. App. P. 22(b). He
requests leave to proceed in forma pauperis ("IFP").
Security forcibly removed Matthews and Joshua Simpson from a Detroit nightclub, in the early morning of
November 22, 2015. They tried to reenter but were rebuffed. So Matthews asked Simpson for his
handgun. Simpson gave it to him. Matthews then went to the door and asked to enter. When the door
opened, he shot a security guard in the head.
The jury convicted Matthews of first-degree murder and possession of a firearm during the commission
of a fe|ony. The trial court sentenced him to life without parole plus two years. On direct appeal, the
state court of appeals affirmed his convictions [*2] but remanded on some matters not at issue now.
People v. Matthews, No. 336121, 2018 Mich. App. LEXIS 408, 2018 WL 1122065 (Mich. Ct. App. Mar. 1,
2018), perm. app. denied, 503 Mich..86.0, 917 N.W.2d 66 (2018). In 2019, Matthews filed a federal
habeas corpus petition raising four claims: (1) the trial court erred in denying him substitute counsel; (2)
the trial court denied Matthews his right to a speedy, trial; (3) the trial court erred in assessing him
$1,300 in court costs; and (4) the trial court abused its discretion in ordering $7,500 in restitution. The
magistrate judge recommended denying the petition and a COA. Matthews objected, but only to the
recommended disposition of Claims lr2..He thereby forfeited any appeal of the recommended disposition
of Claims 3-4. See United States v. Walters, 638 F.2d 947, 950 (6th Cir. 1981); see also Thomas v. Arn,
474 U.S. 140, 142, 145, 147-48, 155, 106 S. Ct. 466, 88 L. Ed. 2d 435 (1985). The district court
overruled the objections, approved and adopted the magistrate judge's report and recommendation,
denied the petition, and denied a COA.
A COA shall issue "if the applicant has made a substantial showing of the denial of a constitutional right."
28 U.S.C. § 2253(c)(2). If the district court denied the habeas petition on the merit's, the applicant must
show that "jurists of reason could disagree with the district court's resolution of his constitutional claims
or that jurists could conclude the issues presented are adequate to deserve encouragement [*3] to
proceed further." Miller-El v. Cockrell, 537 U.S. 322, 3.27, 123 S. Ct. 1029,. 154 L. Ed. 2d 931 (2003).
Matthews fails to meet this standard.
In Claim 1, Matthews argues that the trial court erred in denying him substitute counsel. On direct
appeal, the state court of appeals held this claim meritless. Matthews, 2018 Mich. App. LEXIS 408, 2018
WL 1122065, at *2-3. The district court held that that decision was neither contrary to, nor an
unreasonable application of, clearly established Supreme Court precedent.and did not result from an
unreasonable determination of the facts. See 28 U.S.C. § 2254(d).
Reasonable jurists could not disagree.

1

"In all criminal prosecutions, the accused shall enjoy the right ... to have the Assistance of Counsel for
his defence." U.S. Const, amend. VI. That right to counsel includes "the right of a defendant who does
not require appointed counsel to choose who will represent him." United States v. Gonzalez-Lopez, 548U.S. 140, 144, 126 S. Ct. 2557, 165 L. Ed. 2d 409 (2006).
Matthews's counsel, however, was appointed. Matthews, 2018 Mich. App. LEXIS 408, 2018 WL 1122065,
at *3.
"[T]he right to counsel of choice does not extend to defendants who require counsel to be appointed for
them." Gonzalez-Lopez, 548 U.S. at 151. "The Amendment guarantees defendants in criminal cases the
right to adequate representation, but those who do not have the means to hire their own lawyers have
no cognizable complaint so long as they are adequately represented by attorneys appointed by the
courts." Caplin & Drysdale, Chartered v. United States, 491 U.S. 617, 624, 109 S. Ct. 2646, 105 L. Ed.
2d 528 (1989).
Hence the state court of appeals directed [*4] its attention to the adequacy of Matthews's
representation. See Matthews, 2018 Mich. App. LEXIS 408, 2018 WL 1122065, at *2-3.
- In judging it, the state court of appeals did not unreasonably apply clearly established Supreme Court
precedent, see 28 U.S.C. § 2254(d)(1), for it did not apply any. It applied only state caselaw, which sets
out these standards:
An indigent defendant is guaranteed the right to counsel; however, he is not entitled to
have the attorney of his choice appointed simply by requesting that the attorney originally
appointed be replaced. Appointment of a substitute counsel is warranted only upon a
showing of good cause and where substitution will not unreasonably disrupt the judicial

process. Good cause exists where a legitimate difference of opinion develops between a
defendant and his appointed counsel with regard to a fundamental trial tactic.

Matthews, 2018 Mich. App. LEXIS 408, 2018 WL 1122065, at *2 (quoting People v. Strickland, 293 Mich.
App. 393, 810 N.W.2d 660, 662-63 (Mich. Ct. App. 2011)).
That is not contrary to clearly established Supreme Court precedent. See § 2254(d)(1). This court itself
applies comparable standards. (See below.) Nor did the state court of appeals'apply its standards in a
way contrary to clearly established Supreme Court precedent.
The court noted that Matthews had sent the trial judge several letters asking that trial counsel be
replaced. In a.letter dated February 18, [*5] 2016, Matthews had written that counsel (a) had worked
with the victim and had had a personal relationship with him and (b) was working with the prosecutor to
sabotage Matthews with a "fabricated" video of the crime and with "witnesses that can't place me at the'
scene." But
1
' ' . . '
at a hearing held on March 11, 2016, the trial court questioned defendant and [defense
counsel] Woodards regarding this letter. The'trial court asked'defendant if everything had
been "squared away" between him and Woodards,^nd defendant responded, "Yes."
Woodards also confirmed that the two were working together at that point. Further, when
Woodards asked defendant if he would consent to Woodards continuing to attempt to
negotiate a plea with the prosecutor, defendant agreed to'this course of action.
Matthews, 2018 Mich. App. LEXIS 408, 2018 WL 1122065, at *2. The court of appeals concluded: "Thus,
based on the representations of defendant and Woodards at this hearing, whatever concerns existed at
the time of the February 18, 2016 letter were resolved, leaving the trial court without any reason to
remove Woodards at that point." Id; ■
In the objections to the magistrate judge's report and recommendation, Matthews writes that, when the
judge asked whether he and trial counsel [*6] were squared away, "I thought he meant I was getting a
new lawyer[,] and when I seen he was still my lawyer, I told Judge Kenny I don't want to go to trial with
M[r]. Woodards." Matthews did not present this argument to the state court of appeals, however. It is not
contrary to clearly established Supreme Court precedent for. a court not to consider an argument that is
not advanced.
". ..
After the March 11th hearing, Matthews wrote the trial judge several more letters complaining about
Woodards and asking for a new attorney. Matthews wrote that Woodards had been ineffective, that he
did not have Matthews’s best interests at heart, that he had been hired by the victim's family, that he
had not responded to Matthews's questions, and that Matthews had written to the Attorney Grievance
Commission about him. 2018 Mich. App. LEXIS 408, [WL] at *3.
■
The trial judge addressed these complaints at the final conference,' held on June 10, 2016. He
acknowledged receiving the letters, then asked to hear from Woodards. Woodards said that he had
shown Matthews the video of the incident and that Matthews had denied being the man in the video who
apparently did the shooting and was with Simpson. Woodards said he had then asked who .the man [*7,]
was, if not Matthews, so that Woodards could investigate the matter. At the hearing itself, Matthews said
that he did not know who the man was. Woodards then told the trial court that he and Matthews could
work out their disagreement. The judge denied the request for substitute counsel. He explained that he
"did not believe defendant had presented any reason to discharge Woodards." Id.
On appeal, Matthews complained that the trial court "did nothing to determine whether or not there were
irreconcilable differences between Mr. Matthews and his counsel." The court of appeals disagreed: The .
trial judge had read Matthews's letters. At the final conference, he asked Woodards for his perspective.
"Having heard from both defendant and Woodards, the trial court then made its decision." Id. To the
extent Matthews thought more factual development necessary, it was his burden to request a hearing.
Id. (citing state caselaw). He did not and so now can not complain that the trial court did not investigate
further. Id. None of that is contrary to clearly established Supreme Court precedent.
To the charge that Woodards had been hired by the victim's family, the court,olappeaJs.responded-that—
-defendant-[*8]-simplyseemsTo'have"a'fhisunderstanciing regarding the retention of Woodards. Plainly,
Woodards was appointed to represent defendant in this matter by the trial court; he was not retained by
the victim's family." Id. Matthews points to no evidence to the contrary and, thus, has not clearly and
convincingly shown that factfinding wrong. Hence it must be accepted. See 28 U.S.C. § 2254(e)(1).
As for the other complaints in the letters, the court of appeals held this: None involved a difference of

•j

opinion on a fundamental trial tactic. And all lacked specificity. Matthews did not explain how Woodards
had been ineffective, what reasons Matthews had given for the grievance he had allegedly filed against
Woodards, or what questions Woodards had not responded to. Matthews just generally complained that
Woodards did not have his best interests at heart. The court of appeals concluded that mere allegations
unsupported by substantial reasons did not establish good cause to appoint new counsel. Matthews,
2018 Mich. App. LEXIS 408, 2018 WL 1122065, at *3.
Again, none of that is contrary to clearly established Supreme Court precedent. Reasonable.jurists could
not disagree.
.
■
.
In the interests of justice, whether good cause was shown under this court's caselaw will also be
considered. [*9] An indigent defendant "must show good cause such as a conflict of interest, a
complete breakdown in communication or an irreconcilable conflict with his attorney in order to warrant
substitution" of counsel. Wilson v. Mintzes, 761 F.2d 275, 280 (6th Cir. 1985); accord Henness v. Bagley,
644 F.3d 308, 321 (6th' Cir. 2011). ,When evaluating a trial court's denial of a request to substitute
counsel, a reviewing court considers the timeliness of’tKe motion, the adequacy of the court's inquiry
into the defendant's complaint, and whether the conflict between the attorney and the defendant was so
great that it resulted in a total lack of communication preventing an adequate defense. Henness, 644
F.3d at 321.
There was no conflict of interest. Woodards was appointed by the court, not retained by the victim's
family. Nor was there a complete breakdown in communication or an irreconcilable conflict between
attorney and client. Finally, the trial court's inquiry into all of this was adequate. The judge received
information from both Matthews and Woodards, then made a decision. If Matthews thought a full-blown
hearing was called for, he could have requested one.
This claim is not adequate to deserve encouragement to proceed further. Reasonable jurists could not
disagree.
In Claim 2, Matthews argues that the trial court denied [*10] him his right to a speedy trial. On direct
appeal, the state court of appeals held this claim meritless. Matthews, 2018 Mich. App. LEXIS 408, 2018.
WL 1122065, at *3-6. The district court held that that decision reasonably applied clearly established
Supreme Court precedent and reasonably determined the facts.
Matthews "was arrested on November 22, 2015, and his trial began on September 28', 2016, a period of
approximately TO months." 2018 Mich. App. LEXIS 408, [WL] at *4 rV.2.
^ '
"In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial . . . ." U.S.
Const, amend. VI. This right applies to the states via the Fourteenth Amendment's Due Process Clause.
Klopfer v. North Carolina, 386 U.S. 213, 223, 87‘S. Ct. 988„18.L. Ed. 2d 1 (1967). The Supreme Court
listed these as some Of the factors courts should assess in determining whether a particular defendant
has been deprived of his right to a speedytrial: "Length of delay, the reason for the delay, the
defendant's assertion of his right, and prejudice to the defendant." Barker v. Wingo, 407 U.S. 514, '530,
92 S. Ct. 2182, 33 L. Ed. 2d 101 (1972). None of these four factors is "either a necessary or sufficient
condition to the finding of a deprivation of the right of speedy trial. Rather, they are related factors and
must be considered together with such other circumstances as may be relevant." Id. at 533.
Length of delay serves dual purposes., At first, it is a trigger. "Until there is some delay which is
presumptively prejudicial, [*11] there is no necessity for inquiry into the other factors that go into the
balance." Id. at 530. "[I]n this threshold context, 'presumptive prejudice' does not necessarily indicate at
statistical probability of prejudice; it simply marks the point at which courts deem the delay
unreasonable enough to trigger the Barker enquiry." Doggett v. United States, 505 U.S. 647, 652 ri.l,
112 S. Ct..2686, 120 L. Ed. 2d 520 (1992).
If the accused makes this threshold showing of presumptive prejudice, the full Barker enquiry begins,
and length of delay becomes just one among the many factors that the court considers. See id. at 652.
In accord with state law, the state court of appeals applied Barker's four-part balancing test to the claim.
Matthews, 2018 Mich. App. LEXIS 408, 2018 WL 1122065, at *4-6. This means that the state court was
in effect finding, at the threshold stage, that the ten-month delay between arrest and start of trial was
presumptively prejudicial. Cf. United States v. Brown, 498 F.3d 523, 530 (6th Cir. 2007) (finding a nearly
ten-month delay "likely right at the line to trigger an analysis of the remaining factors").
Length of delay. But under Michigan law, a delay that is under 18 months requires a defendant to prove
he suffered prejudice. Matthews, 2018 Mich. App. LEXIS 408, 2018 WL 1122065, at *4. Hence the state
court of appeals presumed no prejudice from Matthews's ten-month delay and weighed this factor
against him. 2018 Mich. App. LEXIS 408, [WL] at *5. Cf. United States v. Schreane, 331 F.3d 548, 559
(6th Cir. 2003) (explaining 13 1/2-month delay does [*12] not give rise to a presumption of prejudice);
Fleming v. United States, 378 F.2d 502, 503-04 (1st Cir. 1967) (explaining 11-month delay between
indictment and trial is "very short"); United States v. Ducharme, 505 F.2d 691, 693 (9th Cir. 1974) (per
curiam) (holding that appellant had not shown any prejudice as a result of a claimed delay of 11 months

from indictment to trial—thus putting the burden on him to show prejudice).
Reason for delay. The first half of the ten-month period—the roughly five months from November 22,
2015 (arrest) until April 20, 2016—the court of appeals did not count against the State because
Matthews's counsel agreed, to that April 20th trial date. Besides, the trial court tried to set an even earlier
trial date (March 23, 2016), but Matthews's counsel "asked fora different date due to his own schedule."
See Matthews, 2018 Mich. App. LEXIS 408, 2018 WL 1122065, at *6. That left slightly more than five
months from April 20th until September 28, 21016 (the actual start of trial). The court of appeals thought
that delay "entirely reasonable, having essentially been caused by the need to sort out issues related to
Simpson, who was to stand trial with defendant."
On March 22, 2016, approximately a month jpefore the date scheduled for trial, the trial
court ordered Simpson to undergo a competency evaluation. This issue was not resolved
until June [*13] 10, 2016, when the trial court found Simpson competent to stand trial. At
the final conference held that same day, the trial court set trial for September 28, 2016.
This date was selected because Simpson was scheduled to stand trial in an unrelated
carjacking case, Which would be completed on September 27,. 2016.
Id. The appellate court concluded that, "while some routine delays might be attributable to the
prosecution as a technical, matter, it does not appear that any delays that could be charged tq the
prosecutor were unreasonable. This factor weighs against finding a violation of the right to a speedy
trial." Id.
The district court agreed. Barker itself said that "a valid reason, such as a missing witness, should serve
to justify appropriate delay." 407 U.S. at 531. An unavailable codefendant who is scheduled to be tried
with defendant seems an equally valid reason.
Defendant's assertion of his right. The state court of appeals weighed this factor in Matthews's favor. See
Matthews, 2018 MiCh. App. LEXIS 408, 2018 WL 1122065, at *6.
Prejudice. Again, because the time between arrest and trial was under 18 months, the state court of
appeals did not presume prejudice but placed the burden of proving it on Matthews. 2018 Mich. App.
LEXIS 408, [WL] at *4. The court of appeals held that Matthews had [*14] not suffered any prejudice
to his ability to present his defense, because he "does not even attempt to argue" that he had,
nor is any such prejudice apparent from the record. There is no evidence that the roughly
10 months that passed between defendant's arrest and his trial caused any evidence to go
missing, any witnesses to be lost, or otherwise affected defendant's ability to present a
defense.
■ ..
Id. (footnote omitted).

.

: ~-

Matthews now claims that the delay did cause him to lose witnesses. But Matthews cannot expect the
state court of appeals to consider an-argument he did not advance then.
.;
The court did consider whether Matthews had suffered personal prejudice. 2018 Mich. App. LEXIS 408,
[WL] at *4-5. The court noted that he' had been detained continuously for the ten months leading up to
his trial and that he had made Conclusory allegations about the anxiety that detention had produced. The
state court of appeals added that "[h]is letters [that he sent to the trial court] similarly raised only
general concerns regarding his inability to be with his family while he was incarcerated." 2018 Mich. App.
LEXIS 408, [WL] at *5. The state court of appeals held that these general and conclusory assertions
failed to demonstrate prejudice. Id.
Finally, the state court of appeals [*15] held that, on balance, it could not grant relief. "To do so would
essentially be a conclusion that defendant's right to a speedy trial was violated simply because he wrote
several letters raising the issue, as that is the only factor weighing in his favor." 2018 Mich. App. LEXIS
408, [WL] at *6.
The district court determined that the state courts' resolution of Matthews's claims was not contrary to,
or an unreasonable application of, clearly established Supreme Court precedent or based on an
unreasonable determination of the facts in light of the evidence presented..Reasonable-jurists-could-not—
-debate-it.----------------------------------------------------- "
Matthews has failed to make a substantial showing of the denial of a constitutional right. Accordingly, his
application for a COA is DENIED, and his motion to proceed IFP is DENIED as moot.

I

Content Type: Cases
Terms: 2021 us app lexis 20373
Narrow By: -NoneDate and Time: Aug 05,2021 02:56:36 p.m. CDT

|p' LexisNexis'

Print

Cookie Policy
Terms & Conditions

